No. 19-61
In the

Supreme Court of the United States
MARITIME LIFE CARIBBEAN LTD.,
Petitioner,
v.
THE UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

REPLY BRIEF

William V. Roppolo
Jodi A. Avila
Kyle R. Olson
Baker McKenzie
1111 Brickell Avenue,
Suite 1700
Miami, Florida 33131
(305) 789-8900

Michael A. Pollard
Counsel of Record
Baker McKenzie
300 East Randolph Street,
Suite 5000
Chicago, Illinois 60601
(312) 861-8000
michael.pollard@bakermckenzie.com

Counsel for Petitioner

293081

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
REPLY BRIEF FOR THE PETITIONER . . . . . . . . . . 1
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

ii
TABLE OF CITED AUTHORITIES
Page
Cases:
Bowsher v. Synar,
478 U.S. 714 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
FEC v. NRA Political Victory Fund,
513 U.S. 88 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 7
Gomez v. United States,
490 U.S. 858 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
INS v. Chadha,
462 U.S. 919 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Myers v. United States,
272 U.S. 52 (1926)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
United States v. Olson,
716 F.2d 850 (11th Cir. 1983)  . . . . . . . . . . . . . . . . . . . . 3
United States v. Providence Journal Co.,
485 U.S. 693 (1988) . . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 7
Young v.
Unites States ex rel. Vuitton et Fils S.A. et al.,
481 U.S. 787 (1987)  . . . . . . . . . . . . . . . . . . . . . . . . 1, 2, 3

iii
Cited Authorities
Page
Statutes and Other Authorities:
28 U.S.C. § 516  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3
28 U.S.C. § 518  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 544 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 547  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. R. Civ. P. 30(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

1
REPLY BRIEF FOR THE PETITIONER
Certiorari should be granted based on the overriding
importance of the question presented: “whether a district
court’s usurpation of the Attorney General’s power to
appoint a private attorney to represent the interests of
the United States—over the United States’ objection—is
subject to harmless error review.” Pet. i.
In its petition, Maritime Life Caribbean Ltd.
(“Petitioner”) argued that application of the harmless
error standard was improper for two independent reasons.
First, the district court violated the constitutional
principle of separation of powers and exercised authority
it did not have when it authorized a private attorney, who
represented a foreign sovereign, the Republic of Trinidad
and Tobago (“Trinidad” or the “Foreign Sovereign”), to
litigate “on behalf of the United States,” App. 22a, “to
get the Government out of the picture,” App. 25a. Pet.
11–20. Second, consistent the Court’s plurality decision
in Young v. Unites States ex rel. Vuitton et Fils S.A. et
al., 481 U.S. 787 (1987), the appointment of an interested
party to represent the United States was a structural
error immune from harmless error review. Pet. 20–23.
Respondent principally focused its response on
Petitioner’s second argument, arguing that Young
applies in criminal cases only. Resp. 15–20. In so doing,
Respondent overlooked the critical distinction between the
facts of this case and those at issue in Young—facts that
corroborate the correctness of Petitioner’s first argument.
The district court in Young had inherent authority to
appoint a special prosecutor, whereas the district court
here lacked any such authority.

2
1. In Young, the district court appointed a private
attorney to investigate and prosecute a criminal contempt
proceeding. Young, 481 U.S. at 793. On certiorari, the
petitioner argued that the district court lacked authority
to appoint “any private attorney to prosecute the
contempt action against them.” Id. The Court disagreed,
holding that “courts possess inherent authority to initiate
contempt proceedings for disobedience to their orders,
authority which necessarily encompasses the ability to
appoint a private attorney to prosecute such contempt.” Id.
This authority, the Court explained, arose out of necessity:
“The ability to punish disobedience to judicial orders is
regarded as essential to ensuring that the Judiciary has
a means to vindicate its own authority without complete
dependence on other Branches.” Id. at 796.
In a later case, the Court clarified that 28 U.S.C § 516,
although implicated but not discussed in Young, “provide[s]
for the Attorney General’s exclusive control over specified
litigation except as otherwise provided or authorized by
law.” United States v. Providence Journal Co., 485 U.S.
693, 704 (1988). “A fair reading of Young indicates that a
federal court’s inherent authority to punish disobedience
and vindicate its authority is an excepted provision or
authorization with the meaning of §§ 516 and 547.” Id.
Where no such exception exists, the authority to conduct
litigation in which the United States has an interest is
vested exclusively in the Attorney General. See 28 U.S.C.
§ 516; cf. Providence Journal, 485 U.S. at 705 (dismissing
petition for writ of certiorari pursuant to 28 U.S.C § 518,
which requires the Attorney General or Solicitor General
to conduct and argue Supreme Court cases in which
the United States is interested, where private attorney,
appointed by the district court, had no authority to file

3
petition); FEC v. NRA Political Victory Fund, 513 U.S. 88
(1994) (dismissing petition for writ of certiorari pursuant
to 28 U.S.C. § 518).
It is undisputed that Section 516 applies here, and
no such exception exists, or is argued to exist. Contrary
to Respondent’s argument, Resp. 15, it is irrelevant that
Section 853(n) proceedings are civil in nature, because
the plain text of the statute does not distinguish between
civil and criminal matters. See 28 U.S.C. § 516. Rather,
Section 516 provides that “the conduct of litigation in which
the United States . . . is interested is reserved to officers
of the Department of Justice, under the direction of the
Attorney General.” 28 U.S.C. § 516. There is no dispute
that the present case is one in which the United States is
interested. Pet. 12–13; see generally Resp. Thus, unlike
Young, officers of the Department of Justice, under the
direction of the Attorney General, had the exclusive
authority to conduct the litigation at issue here.
2. By appointing counsel for the Foreign Sovereign
to litigate “as a surrogate for the Government,” App.
21a, the district court acted without authority and,
simultaneously, usurped the power of the Attorney
General in contravention of the principles underlying the
separation of powers doctrine. Pet. 16.
Respondent does not dispute that “[a]bsent the power
to act, a court lacks authority and its judicial rulings must
be vacated.” Pet. 17 (citing Gomez v. United States, 490
U.S. 858, 875 (1989); United States v. Providence Journal
Co., 485 U.S. 693, 698 (1988); United States v. Olson, 716
F.2d 850, 853 (11th Cir. 1983)). Further, Respondent does
not challenge that a “violation of the separation of powers

4
cannot be harmless.” Pet. 16–17 (citing INS v. Chadha, 462
U.S. 919, 958 (1983); Myers v. United States, 272 U.S. 52
(1926); Bowsher v. Synar, 478 U.S. 714, 726 (1986)).
Certiorari is necessary to correct the mistaken
application of harmless error in a circumstance, such as
this, where the district court acts without authority and
violates the constitutional system of checks and balances.
Indeed, this case presents an even more pernicious threat
to our constitutional protections. Congress conditioned the
Attorney General’s ability to appoint special attorneys by
requiring that the appointed attorneys swear an oath to
faithfully execute their constitutional duties. 28 U.S.C.
§ 544; Pet. 16. These protections were flouted and, in
any event, could not have been followed in this case. The
appointed attorneys represented the Foreign Sovereign
and therefore owed their ethical duties to zealously
represent the Foreign Sovereign’s interest—not the
interests of the United States. The appointed attorneys
had an inherent conflict of interest that permeated the
entire decade-long litigation. The district court had no
power to authorize private attorneys to litigate on behalf
of the United States, much less attorneys who represented
the Foreign Sovereign.
3. Respondent offers no merits defense to these points.
Instead, Respondent resists certiorari by attempting to
justify the erroneous harmless error conclusion. Resp.
17. According to Respondent, the Foreign Sovereign did
not “assume the decision-making authority vested in
the government attorneys or represent the government
before the district court.” Resp. 18. The issue of whether
Petitioner was prejudiced is not before the Court.
Nonetheless, Respondent’s arguments are mistaken. As

5
the district court and the court of appeals made clear,
the Foreign Sovereign appeared, not in its own right,
but on behalf of the United States Government. App. 22a
(“I’m going to allow the Trinidad entity to remain in the
association not in their own rights, but as I said before,
to do the work on behalf of the Government.”); App. 12a
(“Maritime also argues, and we agree, that the district
court erred in permitting Trinidad, a foreign sovereign, to
intervene in the ancillary proceeding to litigate on behalf
of the United States.”).
Further, neither the Court nor Petitioner are privy to
the extent of decision-making that Trinidad assumed in
the district court. All evidence, however, indicates that it
was substantial. For example, Trinidad, on behalf of the
United States, took a position that was inconsistent with
the United States’ theory of forfeiture. ECF No. 1003.
Specifically, Trinidad argued that an entity, Inversiones
Rapidven S.A., and not the criminal defendant, was the
true owner of the property at issue. Id. Contrary to
Respondent’s position, Resp. 20 n. 4, this fact is significant.
If Trinidad were correct, and the criminal defendant
did not own the property at issue, then the Government
would have had no authority to forfeit that property
in the first instance. See ECF No. 1014 (“The criminal
forfeiture provisions on which the Government relies
are in personam, and authorize the Government to seek
forfeiture of a named defendant’s interest in the subject
property. If [the criminal defendant] had no ‘interest in the
Red Road Property to give,’ the Government should not
have moved to forfeit that property in the first instance.”).
Respondent’s contention that the “Government made
the decision . . . to litigate third-party claims for more than

6
a decade[,]” Resp. 17, is unsupported by the record, and
at best speculative given the context. As the Government
made clear twelve years ago when it moved to set aside
forfeiture as to the Red Road Property—the property
at issue—“[i]t was always the United States’ intent, as
stated in its motion for Preliminary Order and Judgment
of Forfeiture, to move for an order vacating the Order of
Forfeiture, as to the Red Road Property . . . in favor of
the restitution, when determined.” ECF No. 512. Notably,
Trinidad alone opposed the Government’s motion to set
aside the forfeiture. ECF No. 515. Just five days later, the
Government acceded to Trinidad’s objection and withdrew
its motion to vacate the order of forfeiture. ECF No. 520.
Further, the cost (both in terms of money and time) to
oppose Petitioner’s third-party claim for more than a
decade well exceeded the value of the property in dispute.
Respondent’s argument that the Government decided
on its own to litigate the third-party claims, without
Trinidad’s influence, is the less reasonable inference under
the circumstance.
No one doubts that victims may aid the Government
in gathering information and otherwise preparing for
judicial proceedings. Resp. 18. That is not what happened
here.1 There is a marked difference between providing
1. Trinidad prepared and filed 95% of the documents for the
Government, including case-dispositive summary judgment motions.
See, e.g., ECF Nos. 1003, 1239. Trinidad appeared at court-mandated
mediation for the Government. ECF Nos. 1114, 1123. Trinidad led
fourteen depositions across the United States, as well as in Canada
and Aruba, on behalf of the Government, including the defense of the
Government’s Federal Rule of Civil Procedure 30(b)(6) deposition.
ECF Nos. 1239; 1276-6. Of the 48 ½ hours of deposition testimony
taken in the case, the Government asked a sum total of twelve

7
assistance, on the one hand, and having a private attorney
who represents a foreign sovereign appear for, speak on
behalf of, file court papers for, and elicit evidence for the
United States Government, on the other. More to the
point, there is no dispute that the district court authorized
Trinidad, a party without standing, to participate in the
proceedings on behalf of the United States for more than
ten years. App. 12a.
4. R e sp ondent ’s f i n a l a rg u ment i s t hat t he
circumstances of this case are “sufficiently idiosyncratic
that they are unlikely to recur with any frequency[.]”
Resp. 20. Respondent is mistaken. Whether the proper
party is representing the interests of the United States
Government is not an idiosyncratic aberration. Indeed,
some form of this issue has reached the Court on at least
two prior occasions, albeit under the parallel Section 518
statute, which dictates who may represent the United
States before the Supreme Court. See Providence Journal
Co., 485 U.S. at 704; NRA Political Victory Fund, 513 U.S.
at 90–98.

questions. ECF 1239. The Assistant United States Attorney also
acknowledged the indispensable role the Trinidad-led depositions
played in the case against Maritime: “We couldn’t go forward without
those depositions, Your Honor.” ECF No. 1234. Moreover, Trinidad’s
law firm referred to itself as the Government’s “first chair,” and
confirmed to the district court, in relation to the “raging debate
between Maritime Life and our side about my firm and my client’s
role here,” that “when I say ‘we,’ it’s really the royal we of this side of
the argument.” ECF No. 1001. In short, consistent with the district
court’s directive to litigate “on behalf of” the Government, App.
22a, Trinidad dictated the litigation strategy against Maritime on
every material level.

8
Moreover, the Court should grant certiorari because
the issue is an important federal question that has not been,
but should be, settled by the Court. The Eleventh Circuit
held that the district court’s erroneous appointment,
over the United States’ objection, of a private attorney to
litigate for the United States is subject to harmless error
review. Where, as here, the private attorney represented
an interested foreign sovereign, injury to the system, and
not just the parties, is especially apparent. Absent a ruling
by this Court, this important issue will evade review.
CONCLUSION
The district court usurped the role of the Attorney
General by authorizing counsel on behalf of a foreign
sovereign to litigate for the United States. In so doing,
the district court acted without authority and violated
the constitutional principle of separation of powers.
Harmless error does not apply to the district court’s
ruling. Certiorari is warranted.
Respectfully Submitted,
William V. Roppolo
Jodi A. Avila
Kyle R. Olson
Baker McKenzie
1111 Brickell Avenue,
Suite 1700
Miami, Florida 33131
(305) 789-8900

Michael A. Pollard
Counsel of Record
Baker McKenzie
300 East Randolph Street,
Suite 5000
Chicago, Illinois 60601
(312) 861-8000
michael.pollard@bakermckenzie.com

Counsel for Petitioner
December 6, 2019

